1
are its SOPs.     SBA’s resource partners, as well as its staff, rely heavily on these
directives.

In practice, Agency staff and resource partners have not always been able to identify
which directives were in effect and to be followed at a given time. [ FOIA Ex. 5 ], the
OIG is issuing this advisory memorandum to seek correction of the problem.

Issues Involving Temporary Directives

Perhaps the most important temporary directive is the Policy Notice. It is used “to
convey a definite course of action to be taken by the Agency regarding a specific
issue(s).”1 According to SBA’s current SOP on temporary directives, “Policy Notices
will remain in effect for 1 year. Policy Notices are not renewable. Once they have
expired, they must be incorporated into the pertinent permanent directive (SOP).”
[emphasis added] 2

An official involved with the directives process expressed it another way: expired Policy
Notices should actually be considered expired. If a Policy Notice expires and the
relevant program office wants to continue the policy stated in the notice, that office is
supposed to update the relevant SOP. Otherwise, the policy itself would no longer be in
effect after the notice’s expiration date unless it had been incorporated into an SOP or it
appeared in a law or regulation. In any event, the notice would no longer apply.

Unfortunately, Agency staff and resource partners, such as lenders, have not always
received a clear interpretation, particularly when no other directive has been issued on the
subject. Conflicting advice from SBA regarding the status of expired notices has led to
some confusion and inefficiency in the Agency’s programs.

For example, a Policy Notice instructing SBA employees not to verify the citizenship
status of naturalized citizens had an expiration date of June 1, 2002. Some lenders sought
guidance as to whether to continue to comply with the notice after the expiration date.
SBA district office, program, and legal staff offered differing interpretations on whether
the policy described in the notice continued after the notice’s expiration date.

A similar situation exists for Procedural Notices. Such notices are to remain in effect for
one year. However, unlike Policy Notices, Procedural Notices can be renewed under
certain circumstances. The Administrative Information Branch determines whether such
a notice should be renewed or incorporated into an SOP.3 Yet, some Procedural Notices
are neither renewed nor incorporated into an SOP. 4




1
  SOP 00-23-5A, “SBA Directives Management System,” paragraph 29.c., page 19.
2
  Id., paragraph 32.c., page 22.
3
  Id., paragraph 32.d., page 22.
4
  Other temporary directives—Administrator’s memos, executive memoranda, and information notices—
are not required to be incorporated into SOPs.


                                                2
For example, a Procedural Notice on the annual business plan review for Section 8(a)
firms had an expiration date of May 1, 1996. According to one official, the notice is
officially not in effect but is still being used until a new SOP is issued.

Interestingly, modifying an SOP involves essentially the same process as issuing a Policy
or Procedural Notice. SOP 00-23-5 acknowledges this, noting that “…issuing a revision
to an SOP generally requires as many clearances, and takes the same amount of time, as
issuing a Procedural or Policy Notice.”5 For example, issuing a new SOP requires
clearance by ten offices, while issuing a Policy Notice requires nine offices. 6 Yet,
program officials appear to prefer issuing Policy Notices because, according to one
official, program staffers may perceive Policy Notices as easier to process.

Whatever the reasons for not issuing new or revised SOPs, uncertainty among SBA staff
and resource partners can waste time (and thus salaries), while delaying the delivery of
services to small businesses. Equally important, such inconsistency does little to help the
Agency’s public image. [FOIA Ex. 5]. None of this is helpful at a time of limited SBA
financial and human resources, nor does it advance the mission of the Agency.


Issues Involving Draft SOPs

In contrast to notices used beyond their expiration dates, drafts of proposed but unissued
SOPs are sometimes used by program staff ahead of time. The issue here is that such
draft SOPs have no official authority until they are formally cleared and issued. The only
way the substance of a draft SOP could be in effect is through a higher source of
authority, i.e., a related law or regulation.

For example, a draft SOP for small purchases, grants, and cooperative agreements was
prepared in August 1998. Staff members have been directed to follow the draft SOP even
though it has not been cleared or assigned an effective date.

It is understandable why program staff might want to use or cite a draft SOP whenever an
existing permanent SOP is obsolete. However, a draft is still a work in progress and not
the final directive. Moreover, as in the case of temporary directives, the Agency could be
exposed to [FOIA Ex. 5] confusion and inconsistent application in the operation of the
Agency’s programs.

It is our understanding that the SOP on SBA’s directives system is currently being
revised. However, SBA needs to immediately alleviate the confusion and potential risk
inherent in the current situation.




5
    SOP 00-23-5, “SBA Directives Management System,” paragraph 20.b., page 14.
6
    Id., paragraph 14, page 10; SOP 00-23-5A, paragraph 31.c., page 21.


                                                   3
Fundamental Issues

Solving SBA’s directives problems depends in part on the Agency’s vision as to the best
ways to help small businesses. Components within SBA need to collectively answer
basic questions about future directives, such as:

   •   Should the same type(s) of directive(s) be used for both Agency staff and resource
       partners?

   •   In an electronic era, does SBA still need as many types of directives? Or can the
       system be simplified?

   •   What should the appropriate clearance process be?

   •   What legal issues, if any, must be addressed in changing the existing system?

   •   How can changes to any new directives system be done most efficiently and
       effectively? How can an incremental system that allows changes on an “as
       needed” basis be incorporated into the system?

   •   Should SBA rely entirely on the Internet to communicate directives and the
       subsequent changes to them, with no hard copies produced?

   •   Should all SBA directives, regardless of type, and subsequent changes appear in
       one place, e.g., in one Web location?

These and other issues affect all aspects of the Agency. Reaching agreement may require
the participation of the major affected parties, i.e., the Offices of Capital Access, Disaster
Assistance, Entrepreneurial Development, Government Contracting and Business
Development, and Administration, as well as field offices, OGC, and the OIG.

SBA sorely needs a user-friendly directives system that will meet its future needs. To
accomplish this, a high level official should have management responsibility for
directives system reform and an experienced staff should immediately be assigned to
begin changing the existing system. Moreover, a working group of senior managers from
each major Agency office should advise the official and staff on key issues involving the
system.

Recommendation

To reform SBA’s directives system, the Associate Deputy Administrator for Management
and Administration (ADA/M&A) should immediately establish, chair, and consult with a
working group of representatives from major Agency offices and at least one field office.
The ADA/M&A should also assign experienced staff to this effort. Within 60 days after
creation of the group, it should develop a plan for revising the fundamental structure of
the directives system.


                                              4
CONTRIBUTORS TO THIS REPORT

Phil Neel, Senior Inspector
David R. Gray, Counsel to the Inspector General




                                          5
6
